Vf
■

0 ^ WfD

*

(K

NO. 20-55018

-sSl

Q
0-

IN THE

Q

Supreme Court of the United States

O
O
O
o->
O
O

Roland Leroy Reese-Bey

0
o

petitioner,

%

v.

--

i¥i.Ui

IT

. Juan Guerrero, et al.,
Respondents,

fa e m n

n n

t?
>•
i

filed

-

'i‘

rnlT

r‘ ‘

FEB 1 9 2021

\
V
5U

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

RECEIVED
PETITION FOR WRIT OF CERTIORARI

J

I

MAR 1" 2021

gsagjB&agE
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Supreme Court Rule 39, Petitioner, Roland Leroy Reese-Bey, in
pro se/sui juris, request that the Court grant him leave to proceed in forma
pauperis. In support of this Motion, the Petitioner avers that:

I.
Petitioner is unable to afford cost of filing and/or representation in this matter.
II.

* '
,

*’

•t

Petitioner proceeded below in the district court and on appeal in pro per/in
pro se/sui juris and leave to proceed in forma pauperis was granted therein.
III.
Because of continuing inability to afford filing fees and/or counsel, pursuant
to 28 U.S.C. § 1915, the undersigned places his petition before this Court.
WHEREFORE, the petitioner, Roland Leroy Reese-Bey, the undersigned,
respectfully requests that he be allowed to proceed in forma pauperis without
payment of filing fees or service of notice fees, and for such other relief as the
Court deems just and proper.

I declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct.
All Rights Reserved

Executed on

Roland Leroy Reese-Bey

Date

Respectfully submitted,

Roland Leroy Reese-Bey
3620 South J. Street
Oxnard, California, u.S.A. [93033]
In Pro Per/In Pro Se/Sui Juris

Tel: 805-483-0339
Email: asiaticus7@gmail.com

‘l
I

NO. 20-55018

IN THE

Supreme Court of the United States
Roland Leroy Reese-Bey
petitioner,
v.

Juan Guerrero, et al.,
Respondent,

ORDER REGARDING MOTION TO PROCEED
IN FORMA PAUPERIS ON WRIT

The court has considered the appellant's motion to proceed in forma pauperis
on writ:
IT IS ORDERED that the motion be
Washington DC, this

day of

JUSTICE

, 2021.

o
No. 20-55018
CERTIFIED MAIL # 7020 0090 0001 2906 1131

Supreme Court of the United States

Roland Leroy Reese-Bey
Petitioner,
vs.
Juan Guerrero, et al.,
Respondents,

On Petition for
Writ of Certiorari
The United States Supreme Court
PETITION FOR WRIT OF CERTIORARI
Roland Leroy Reese-Bey
3620 South J. Street
Oxnard, California, u.S.A. [93033]
Telephone: (805) 483-0339
Pro Se / Sui Juris
Page 1 of 14

‘j

I.

Question Presented

Where jurisdiction was initially questioned and never established or proven
on the record, in an arrest and prosecution resulting from an “alleged” and
unwarranted “traffic stop” with several violations of rights protected by the
Constitution, including but not limited to right to travel, the Fourth, Fifth and
Fourteenth Amendments, is it lawful for the court to grant defendants’ motion for
summary judgement and the Circuit (reviewing) court to affirm judgment via
respondents’ motion to affirm without review, briefing and/or arguments?

Page 2 of 14

1

II.

Table of Contents

I.

Question Presented

2

II.

Table of Contents...

3

II.

Petition for Writ of Certiorari

4

III.

Opinions Below........................

4

IV.

Jurisdiction............................

4

V.

Constitutional Provisions Involved

4-5

VI.

Statement of the Case

5-6

VII. Facts of the Case..........................................

6-11

VIII. District Court Judgement............................

11

IX.

Direct Appeal...............................................

11

X.

REASONS FOR GRANTING THE WRIT

11-13

To avoid erroneous deprivations of the right to travel this Court should
clarify the limitations of state police power as it is being abused through the
pretense of minor state “traffic” codes to deprive people traveling for personal
necessities (non-commercial travel) of rights protected by the Constitution.
XI.

CONCLUSION

13

XII. ATTACHMENTS

14

Page 3 of 14

‘.1

III.

Petition for Writ of Certiorari

Roland Leroy Reese-Bey an American National but not a U.S. citizen domiciled in
California and receives mail at: do 3620 South J. Street, Oxnard, California
[93033] respectfully petitions this court for a writ of certiorari to review the
judgement of the 9th Circuit Court of Appeals.
IV.

Opinions Below

The decision by the 9th Circuit Court of Appeals is reported as Roland Leroy ReeseBey v. Juan Guerrero, et al., No. 20-55018. The 9th Circuit Court of Appeals granted
the respondents’ motion to affirm the District Court’s order granting the defendants’
motion for summary judgement and dismissal of the case. The orders and
explanations are attached at the ATTACHMENT page.
V.

Jurisdiction

The 9th Circuit Court of Appeals’ order granting respondents’ motion to affirm the
District Court’s order granting defendants’ MSJ was filed on November 18, 2020.
Roland Leroy Reese-Bey invokes this Court’s jurisdiction under 28 U.S.C. § 1254:-

VI.

Constitutional Provisions Involved

United States Constitution Amendment TV:
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be
seized.

Page 4 of 14

ix

United States Constitution Amendment V:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual service in time of War or
public danger; nor shall any person be subject for the same offence to be twice put
in jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use without just
compensation.
United States Constitution Amendment XIV:
All persons bom or naturalized in the United States, and subject to the

,

jurisdiction thereof, are citizens of the United States and of the State wherein :

' 4 .•

they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State

A,. /.

•’

deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.

VII. Statement of the Case
Historically this Court has upheld the right of due process of law and equal
protection of the law in a myriad of cases. Jurisdiction (challenged here and
throughout this matter) is imperative where violation of rights protected by the
Constitution are concerned.
"The law requires proof of jurisdiction to appear on the record of the administrative
agency and all administrative proceedings." Hasans v. Lavine, 415 U. S. 533

Page 5 of 14

%. i;

11:05 pm what appeared to be a state marked patrol car got behind us and
turned on the emergency lights directing our car to stop and we did, on the
comer of 107th Street & Normandie.
2. I was behind the wheel so I pulled over and stopped. At that time we were
approached by what appeared to be two L.A. county sheriff officers. At that
point (Daniel Davis, hereafter Danny), one of our friends, pulled out his cell
phone and started recording the incident.
3. One of the alleged officers (Park) came up to the front window on the left side
of the car and ordered me to turn off the engine. I then said to him “I’m not
involved in any commercial activity that would give you the authority to
regulate or prohibit my activities. He then started to question me. At that point
I asked Park, why had he stopped us. Park then proceeded to quote a case law
(U.S. vs. Miles) as his authority and/or reason for stopping us.
4. While he (Park) was addressing us in the front of the automobile, I noticed by
way of over hearing what was being said that his partner (Guerrero) had our
other friend (Talmadge Talib, hereafter Talib), in the back at gun point. As we
were being questioned by Park, I could hear (Talib) in the back say “You have
that gun pointed at my face, you are threaten my life” at which point I voiced 5 my concerns to Park about what was going on with the gun situation in the
back.
5. At that point, I was very disturbed by this and fearful of what might happen
to all of us. I thought this could very easily turn into a shooting of someone
and/or perhaps everyone in the car. I felt that this entire incident was a case of
racial profiling and this stop was going to end with one or some of us being
assaulted, shot, kidnapped or killed.
6. At that time Park ordered us to place our hands on the dash board for “his
safety”. He (Park), then asked us (in the, front), a series of questions to which
we all did not consent to answering. At that time I heard the other alleged
officer (Guerrero) yell out to Talib in the back saying, “show me your left
Page 7 of 14

i

.. 1

door of our car. At some point after that, Romaine got out of the car and went
to the back to talk to Talib.
12. At that point I observed that one of the alleged officers (Sgt. North) had a
video camera and was recording the entire incident. Another one of the
alleged officers had his gun drawn and pointed directly at the open back
window of the camper shell where Talib ;was sitting. Romaine was there
talking to Talib for a couple of minutes and then I saw the alleged officers
motion for her to move onto the sidewalk away from our car. At that point I
was extremely afraid that he (Talib) was going to be shot.
13. At that point, they (Park & Guerrero) started spraying what I later found out
was mace. Then they started to forcefully remove him from the car. They
each grabbed his legs and his arms and dragged him out of the car. They
immediately pulled his hands behind his back, handcuffed him and took him
away.
14. At that time, a group of them (the alleged officers) all went into a huddle in
the middle of the street and began talking among themselves. After a few
minutes they came out of their huddle. North went over to the sidewalk where
Romaine was and he had the camera pointed directly at her. Shortly thereafter,
he put down his camera and walked away from Romaine. He then walked
back over to the other group of alleged officers and they got into another
huddle.
15. A few minutes later a female alleged officer (Marchello) arrived in another
patrol car to the location. The other alleged officers consulted with her and
shortly thereafter she immediately went over to Romaine and grabbed her and
started arresting her. At that point I had become extremely angry and
concerned for wife’s health and safety as my wife immediately yelled out
“you’re hurting me.”
16. At that time, I saw Marchello searching Romaine and Romaine was yelling
at her the entire time. Marchello then attempted to forcefully walk Romaine
Page 9 of 14

A’-

-A.
-•

?v

"With regard particularly to the U.S. Constitution, it is elementary that a Right
secured or protected by that document cannot be overthrown or impaired by any
state police authority." Connolly v Union Sewer Pipe Co. 184 US 540;

"The police power of the state must be exercised in subordination to the
provisions of the U.S. Constitution." Buchanan v Warley 245 US 60;
Panhandle Eastern Pipeline Co. v State Highway Comm, 294 US 613

Although these issues of travel rights have been clearly established in the past, there
needs to be new and clearly decisive Supreme Court rulings/holdings on these basic
inherent rights. The state statutes do not expressly and/or clearly include personal
use of an automobile in and of their regulatory scheme. The statutes make no
unambiguous mention of any use other than commercial.
If the statute is silent or ambiguous with respect to the specific issue, the question
for the court is whether the agency's intent is based on a permissible construction of
the statute. Chevron U.S.A., Inc, v Natural Res. Def. Council, Inc. 467 U.S. 837,

The ambiguous and unclear nature of the state statutes are being used for violative and
exploitative purposes and to claim unlawful and unestablished jurisdiction for the
purpose of conducting bad-faith prosecutions (riddled with due process of law
violations) in order to cover up abuse of power acted out by their policing agencies.
This Court is the only entity available to the people as refuge from and remedy to the
injustices that are being perpetrated by the state via color of law and abusive police
power.

Page 12 of 14

-6

The criminalization of the poor & working class [i.e. black & brown communities]
of this nation has become a criminal enterprise of local government and killing fields
of law enforcement agencies and officials. These are supposed to be agents and
institutions of public trust and public service. The unlawful search and seizure of
the people’s persons, property, labor and financial resources under disguise of minor
traffic infractions as “probable cause” is un-constitutional and a breach of fiduciary
duty of these public servants. This literal assault on my body, violation of my
privacy and theft of my private property and deliberate indifference to my concerns
and my interest therein is blatantly criminal and warrants remedy of a severe punitive
nature. These State agencies that maintain a custom and practice of obtaining funds
(i.e. generating revenues) for public use and/or budgetary purposes or contractual
agreements with and for private companies profit, are doing so via the violation
and/or infringement upon the rights of “the people” (in this case me).

XII. CONCLUSION
This case presents this Court with the opportunity to correct those injustices and set a
clear and just pathway for future travelers to be free of unlawful intrusion upon rights
& liberties, detainment, arrests and bad-faith prosecutions that come as the result of
these kinds of unnecessary encounters.
For the forgoing reasons, Roland Leroy Reese-Bey respectfully requests that this
Court issue a writ of certiorari to review the judgment of the 9th Circuit Court of
Appeals.
I declare under penalty of perjury under the laws of the united States of America
that the foregoing is true and correct.
Respectfully

All Rights Reserved

Date

Roland Leroy Reese-Bey

Page 13 of 14

